     DETERMINATION OF UNNECESSARY
    DUPLICATION WITHIN THE OFFICE OF
     GENERAL SUPPLIES AND SERVICES
      FEDERAL ACQUISITION SERVICE
    REPORT NUMBER A080226/Q/A/P09006
          SEPTEMBER 30, 2009




 
 
         DETERMINATION OF UNNECESSARY DUPLICATION WITHIN
           THE OFFICE OF GENERAL SUPPLIES AND SERVICES
                   FEDERAL ACQUISITION SERVICE
                 REPORT NUMBER A080226/Q/A/P09006

                             TABLE OF CONTENTS

                                                                       Page

EXECUTIVE SUMMARY                                                        i
INTRODUCTION                                                             1
     Background                                                          1
     Objective, Scope and Methodology                                    2
RESULTS OF REVIEW                                                        5
     Brief                                                               5
      Finding 1 – Unnecessary Duplication within MAS                     5
        FAS Commissioned Studies on GSS Duplication                      5
             Recommendations                                            10
        FAS Initiatives to Reduce Unnecessary Duplication in MAS        10
             Recommendations                                            17
        System Issues Related to Small Business Set-Asides              17
             Recommendation                                             18
      Finding 2 – No Unnecessary Duplication of Products and Systems
                  between MAS and GSA Global Supply                     18

      Finding 3 – No Unnecessary Duplication of Products within
                  GSA Global Supply                                     20

     Overall Report Conclusion                                          20
     Management Controls                                                20
Management Comments                                                     21
APPENDICES
     Management Response to the Draft Report                           A-1
     Report Distribution                                               B-1




 
           DETERMINATION OF UNNECESSARY DUPLICATION WITHIN
             THE OFFICE OF GENERAL SUPPLIES AND SERVICES
                     FEDERAL ACQUISITION SERVICE
                   REPORT NUMBER A080226/Q/A/P09006

                               EXECUTIVE SUMMARY

PURPOSE

The objective of our review was to determine: Does unnecessary duplication exist within
the Office of General Supplies and Services (GSS)? If yes, what initiatives has GSS
taken to address duplication, and what, if any, further actions are needed to eliminate
unnecessary duplication?

BACKGROUND

Our review was initiated primarily at the request of GSS management to address issues
identified in the Office of Management and Budget’s (OMB’s) 2007 Program
Assessment Rating Tool’s analysis of GSS, which stated that unnecessary duplication
existed within GSS.

GSS officials requested that our review focus on determining whether unnecessary
duplication exists between GSA Global Supply and MAS, based on OMB’s assertion.
During the course of validating OMB’s statement, we subsequently expanded the scope
of the review to include whether unnecessary duplication occurred within the GSA
Global Supply and MAS business lines.

RESULTS IN BRIEF

Based on the scope of our review, we determined that duplication of products and
systems existed between GSA Global Supply and MAS, but that this type of duplication
was appropriate. Additionally, our review did not identify unnecessary duplication of
products within GSA Global Supply. However, unnecessary duplication did exist within
MAS. While GSS had undertaken studies and initiatives to address the duplication, we
determined that more could be done to reduce confusion and costs for FAS, vendors,
and customers.

RECOMMENDATIONS

We recommended the Commissioner of the Federal Acquisition Service:

1. Create an accurate and complete inventory of GSS MAS duplication, while taking in
   to account the deficiencies of the Booz Allen Hamilton (BAH) rationalization study.



                                           i

                                            
2. Develop and implement a plan to determine whether recommendations in BAH’s
   September 2008 report regarding the 1649 process should be acted upon.

3. Implement the following operational and educational improvements to the
   Consolidated Schedule (CS):

   a) Centrally determine which Schedules should participate in the CS, when they
      may be allowed to cease participation, and what documentation, review, and
      approval are required for such a change.
   b) Determine whether acquisition centers that assist with CS contracts should be
      allocated a portion of CS revenue.
   c) Synchronize updates of the CS and their participating Schedules.
   d) Determine the feasibility of improving the accuracy of CS vendor offerings
      displayed in FAS systems.
   e) Increase vendor awareness of the CS.

4. Issue updated guidance on the 1649 process, after determining the most suitable
   procedures.

5. Submit a formal Federal Procurement Data System change request to GSA’s Office
   of the Chief Acquisition Officer to resolve the issue that requires GSS to award
   separate MAS contracts for small business set-asides.

MANAGEMENT COMMENTS TO THE DRAFT REPORT

The Commissioner concurred with our recommendations. However, he requested two
minor wording changes in the body of the report, which we incorporated. His comments
are included in their entirety as pages A-1 and A-2. Attachment A of his comments,
which involved 1649 criteria, is summarized on page A-3. Attachment B of his
comments, which showed that the FAR Part 51 deviation was finalized, is included as
page A-4.




                                         ii

                                           
                        DETERMINATION OF UNNECESSARY DUPLICATION WITHIN
                          THE OFFICE OF GENERAL SUPPLIES AND SERVICES
                                  FEDERAL ACQUISITION SERVICE
                                REPORT NUMBER A080226/Q/A/P09006

                                                               INTRODUCTION

Background

The Office of General Supplies and Services (GSS) of the Federal Acquisition Service
(FAS) is responsible for comprehensive supply chain management and acquisition
services under its four business lines. We focused on the Supply Operations and
Acquisition Operations business lines in this report, since we determined that they had
the most potential for duplication.

The Supply Operations business line, which will be referred to in this report as General
Services Administration (GSA) Global Supply, manages worldwide supply acquisition
and distribution functions. It is a vital component of the National Supply System,
supporting military and civilian requirements, as well as some state/local supply
requirements. GSA Global Supply provides support via two distribution centers, 26
retail stores, and three call centers.

The Acquisition Operations business line manages a large portion of the GSA Multiple
Award Schedule (MAS) program. For purposes of this report, MAS will refer only to
GSS Schedules. Product offerings include furniture, office supplies, clothes, law
enforcement equipment, and (non-computer) hardware. Service offerings include a
broad range of business and professional items, such as supply chain and distribution
services, energy and environmental services, language services, administrative
services, training, (non-computer) hardware services, and facilities maintenance. The
GSS portfolio does not include information technology, automotive, or travel and
transportation Schedules.

For GSA Global Supply items, FAS receives and processes customer orders. In
addition, FAS is responsible for paying vendors, billing customers, and resolving any
sales-related disputes. On the other hand, the MAS program operates quite differently.
Customers place orders with MAS vendors directly, pay the vendors, and generally
resolve any disputes with the vendor without FAS involvement.

As of August 2009, GSA Global Supply had responsibility for 83,743 National Stock
Numbers (NSN) 1 , approximately 300,000 Expanded Direct Delivery (EDD) items 2 , and
                                                            
1
 An NSN is a 13-digit numeric code used to identify products sold by GSA Global Supply. The Defense
Logistics Information Service is the only organization authorized to assign NSNs.  
2
  EDD items are GSA Global Supply items that FAS has decided to ship directly from vendors to
customers. Currently, only office supplies, tools, and information technology products are included.
 
                                                                    1

                                                                      
Non-Stock Listing items. 3 For Fiscal Year (FY) 2008, GSA Global Supply sales were
$1.2 billion, with a net operating profit of $41.3 million.

Statistics for MAS show that since 2004, sales and the number of contracts have
increased, and the number of Schedules has decreased, as shown below:

                                                        Table I – GSS MAS Statistics by FY

                                                          2004      2005        2006   2007    2008     2009 4

                  Sales (Billions)                       $13.6      $15.9   $16.9      $18.0   $19.3    $15.4

                  Schedules                                    37    37         37      33      33       32

                  Contracts                             11,260 12,308 12,550 12,513            12,150   12,315

Our review was initiated primarily at the request of GSS management to address issues
identified in the Office of Management and Budget’s (OMB’s) 2007 Program
Assessment Rating Tool’s (PART) analysis of GSS. The OMB report cited certain
actions taken by GSA that created the opportunity to reduce unnecessary duplication,
such as: creation of the FAS organization, consolidation of responsibility for GSA Global
Supply and many of FAS’ Schedules in GSS, and establishment of the Office of
Strategic Business Planning and Process Improvement. However, the OMB report
stated that “vendors were asked to do business with GSA and customers in a confusing
and costly variety of ways.” Specifically, the report noted areas of concern related to
duplication as noted in the following two examples. First, regional management of FAS’
acquisition centers had led to Schedule contracts for the same or similar products and
services and competition between the centers for customers. Second, for similar
products that were available under both GSA Global Supply and MAS, customer
agencies could order through multiple websites that did not allow them to compare
items or prices.

Objective, Scope and Methodology

The objective of our review was to determine: Does unnecessary duplication exist within
GSS? If yes, what initiatives has GSS taken to address duplication, and what, if any,
further actions are needed to eliminate unnecessary duplication?


                                                            
3
 Non-Stock Listing (NSL) items are bought by GSA Global Supply on behalf of customers. They do not
have an assigned NSN and are not stocked in GSA warehouses. The number of NSLs is not recorded by
the acquisition center and is therefore not quantified in this report.  
4
  Period of Coverage for FY 2009 sales and schedule figures was through May 2009. The number of
contracts in 2009 was current through July 2009.
 
                                                                            2

                                                                             
GSS officials requested that our review focus on determining whether unnecessary
duplication exists between GSA Global Supply and MAS, based on OMB’s assertion.
During the course of validating OMB’s statement, we subsequently expanded the scope
of the review to include whether unnecessary duplication occurred within the GSA
Global Supply and MAS business lines.

To accomplish the objective of the review, we performed the following steps:

   •   Conducted interviews with Central Office officials including Office of Acquisition
       Operations, Office of the Controller, Office of Strategic Business Planning &
       Process Improvement, Office of Acquisition Management, and Office of
       Customer Accounts & Research;

   •   Discussed overlap with contracting personnel and management officials in the
       Management Services Center in Auburn, Washington, as well as the Heartland
       GSA Global Supply Center and the Facilities Maintenance and Hardware
       Acquisition Center in Kansas City, Missouri;

   •   Interviewed management for the Western Distribution Center in French Camp,
       California, and the Eastern Logistics Division in Philadelphia, Pennsylvania;

   •   Analyzed the following reports related to duplication of services within GSA:
       Accenture’s April 30, 2002, report, GSA Delivery of Best Value Information
       Technology      Services  to    Federal    Agencies      and    SiloSmashers’
       September 30, 2005, report, Final Report: Multiple Award Schedule Program
       Research and Analysis. We obtained cost information where available and
       determined whether actions were taken by FAS to address the issues identified
       in the reports;

   •   Evaluated the Booz Allen Hamilton (BAH) rationalization study, which was
       presented to FAS in July 2008 and determined the actions FAS has taken to
       address the study’s findings;

   •   Reviewed the September 2008 BAH assessment of processes and procedures
       related to GSA Form 1649, “Notification of Federal Supply Schedule
       Improvement,” and ascertained the status of the study’s recommendations;

   •   Interviewed FAS officials knowledgeable in the following areas: FAS’ ongoing
       initiative to standardize MAS contract clauses for services and FAS’
       Communities of Interest (COI) initiative in the areas of security, financial
       information, facilities, and human resources; and FAS’ processes and
       procedures related to GSA Form 1649 (the 1649 process), as well as their
       actions and plans regarding the form;


                                           3

                                             
   •   Conducted a judgmental selection of customer agencies and interviewed their
       representatives to understand how they order from GSA Global Supply and MAS
       and whether they have any issues with overlap. Our meetings included
       contracting personnel and/or management from the following agencies:
       Department of the Treasury, Federal Emergency Management Agency, and
       Department of Homeland Security;

   •   Obtained feedback regarding unnecessary service duplication within GSS from
       the following procurement/acquisition national associations: Professional
       Services Council and the Coalition for Government Procurement; and

   •   Conducted a judgmental selection of several Schedule vendors to understand
       the implications of overlap and possible solutions: Delta Research Associates
       Incorporated, Logistics Management Institute, Science Applications International
       Corporation, L3 MPRI, Management Support Technology Incorporated, Tetra
       Tech EM, ATD-American Co., Manufacturing Technical Solution, Epsilon
       Systems Solution Incorporated, Accenture, and a large MAS vendor in Virginia
       with numerous MAS contracts and no Consolidated Schedule (CS) contract.

We conducted this review from September 2008 through July 2009 in accordance with
the generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                           4

                                            
                                RESULTS OF REVIEW

Brief

Based on the scope of our review, we determined that duplication of products and
systems existed between GSA Global Supply and MAS, but that this type of duplication
was appropriate. In addition, our review did not identify unnecessary duplication of
products within GSA Global Supply. However, we concluded that unnecessary
duplication did exist within MAS.

Since 1999, FAS has commissioned four studies and developed three initiatives related
to identifying and minimizing duplication. However, FAS had not implemented all of the
recommendations related to two of the four studies and had not optimized two of the
three initiatives. In addition, we found weaknesses with one of the studies that reduced
its usefulness in eliminating duplication, and a systems issue that resulted in 270
duplicative contracts.

By implementing the studies’ recommendations, optimizing the initiatives, and resolving
the systems issue, FAS could reduce confusion and costs inherent within MAS.

FINDING 1 – UNNECESSARY DUPLICATION WITHIN MAS

Unnecessary duplication exists within GSS MAS. FAS has taken a number of steps to
address duplication, including commissioning studies and undertaking initiatives.
However, GSS needs to improve and expand the inventory of duplication, implement
recommendations of the 1649 study, optimize the CS, and enhance the GSA Form
1649 process. By taking these actions, FAS can reduce confusion and costs for its
stakeholders.

FAS Commissioned Studies on GSS Duplication

Over the past seven years, FAS has commissioned four studies that addressed
unnecessary duplication within the schedules program. These studies included the
Accenture study conducted in 2002; the SiloSmashers study completed in 2005; the
BAH rationalization study issued in 2008; and the 2008 BAH 1649 assessment. FAS
was responsive to the issues related to unnecessary duplication within GSS mentioned
in the Accenture and SiloSmashers studies. However, FAS has not implemented all of
the recommendations in the two BAH reports.

BAH Rationalization Study - The rationalization study’s inventory of duplication was
unreliable, because it was neither complete nor accurate. This may have contributed to
GSS management being unaware of the full extent of unnecessary duplication. In
addition, GSS was unable to implement the recommendations made in BAH’s report
because of the study’s limitations.


                                           5

                                            
On July 7, 2008, the rationalization report 5 was presented by BAH, a leading strategy
and technology consulting firm. Their study sought to identify overlap within FAS’
offerings and analyze what FAS could do to address the duplication that was found.
BAH’s report recommended establishing COI and realigning Special Item Numbers
(SINs) 6 to reduce duplication. GSS is in the process of developing COI for its
Schedules, but has not realigned SINs.

In the Charter for the rationalization study, FAS stated that they needed to rationalize
(justify) the services they offer. It stated that duplication of contract vehicles existed,
and the vast number of offerings had resulted in confusion for FAS customers and
industry partners. The Charter noted that FAS needed to integrate and clarify their
offerings, make them more user-friendly for customers and more cost effective for FAS,
while discontinuing the practice of being reactive rather than proactive. The goals of the
rationalization initiative were to clearly define all FAS offerings, develop an evaluation
program, and create a solid message for customers.

As part of the study, BAH developed an inventory of duplicative offerings for three
commodity groups: security products and services; integrated technology products and
services; and facilities maintenance and management. BAH used this inventory to
select security as the primary area of interest for the study. If the inventory was
improved and expanded, FAS could use it to determine what duplication should be
eliminated.

The rationalization study’s inventory of duplication was incomplete because it included
only 9 of the 33 (27 percent) GSS MAS Schedules that were in effect at the time of
BAH’s study. 7 BAH did not include in its inventory some of GSS’ largest Schedules,
such as 874 (Mission Oriented Business Integrated Solutions (MOBIS), with $3.6 billion
in sales for FY 2007) and 75 (office products, with $573 million in sales for FY 2007).
Therefore, they were unable to identify the full extent of duplication, such as the
presence of water filters on both Schedules 75 and 66 (scientific equipment).

In addition, we determined that BAH’s inventory of duplication was inaccurate, in that it
did not correctly identify all instances of duplication. Examples of inaccuracies include:

•      BAH indicated that “Hoses, Valves, Fittings, Nozzles, Couplings and Related
       Accessories” were duplicated on Schedules 84 (security) and 51V (Hardware
       Superstore). However, the types of equipment on these two Schedules are very


                                                            
5
 The title of this July 7, 2008 PowerPoint briefing was “FAS Product and Service Offering Rationalization
Task: Final Deliverable Briefing - Executive Summary.”  
6
 SINs are alphanumeric codes used to define the products and services vendors may provide pursuant to
a specific Schedule. 
7
At the time of the report, there were 33 GSS Schedules, but currently, there are only 32, including the
CS.   
                                                               6

                                                                
         different. For example, Schedule 51V has garden hoses, whereas Schedule 84 has
         fire hoses;

•        BAH’s inventory identified Schedules 03FAC (facilities maintenance), 51V and 56
         (buildings and building materials) as having duplicate “applicators.” We agree that
         duplication is present between some application tools on Schedules 51V and 56;
         however, we disagree with the inclusion of 03FAC. Schedule 03FAC only has
         application services, which does not overlap with any services on Schedule 56 and
         are not offered on Schedule 51 V; and

•        “Burning equipment” is shown by BAH as duplicated on Schedules 84 and 51V.
         However, the types of burning equipment on these two Schedules are different. On
         Schedule 84, the equipment is for fire fighting, while the equipment on Schedule 51V
         is used for other purposes, such as soldering.

Because duplication can have negative implications for FAS, its customers, and its
vendors, we believe FAS should create an accurate and complete inventory of
duplication within the MAS program. However, FAS should take into account the flaws
of the rationalization study.
BAH 1649 Assessment - Management has not implemented the four
recommendations noted in BAH’s final report for their study of GSA’s 1649 process.
Until the process is improved, issues regarding coordination, confusion, quality,
consistency, timeliness, and resource requirements will continue to exist.

GSA Form 1649, “Notification of Federal Supply Schedule Improvement,” is used to
implement a wide range of Schedule changes, including but not limited to the following:

•        Establish, cancel, or merge existing Schedules
•        Add or delete a SIN or change SIN characteristics
•        Convert items within a SIN from MAS to another method of supply or Schedule type
•        Change the contract period

The process includes a preliminary 1649 that is used to obtain concurrence from the
acquisition centers and minimize overlap of products and services. A subsequent final
1649 is required after market research to obtain final approval for changes.

BAH’s September 2008 report recommended that FAS:

    i.      Revise and widely communicate 1649 requirements to guarantee uniform
            requests, reviews, and implementation throughout FAS entities.

    ii.     Transfer ownership of the 1649 process to one FAS central office, and clearly
            define roles and responsibilities among key stakeholders in order to streamline
            management practices and reduce confusion.

                                                7

                                                  
    iii.      Categorize 1649 requests complexity depending on type of change being
              requested (simple changes=basic form; complex changes=basic form +
              additional section(s) particular to request).

    iv.       Automate 1649 process by incorporating into existing systems such as
              Solicitation Writing System (SWS) in order to streamline processing, reduce
              implementation time, and develop better tracking capabilities.

Personnel from FAS’ Office of Acquisition Management and Office of Strategic Business
and Process Improvement indicated that FAS did not yet implement these
recommendations due to competing priorities for limited staffing and funding, but they
hope to address the recommendations in FY 2010. Due to the importance of the 1649
process in minimizing unnecessary duplication within the Schedules program, we
support improvement of the process.

Accenture Study - In January 2002, GSA set out to determine if its offerings,
processes, and organizational structure were focused on providing best value. It hired
Accenture, a management and technology consulting firm, to help GSA assess potential
overlaps, improve internal efficiencies, and strengthen its focus on customer service.
We determined that FAS took appropriate action to address recommendations related
to duplication. Accordingly, we made no recommendations related to the study.

The Accenture report 8 , issued on April 30, 2002, noted in part that overlaps existed at
GSA in the areas of sales and marketing and contract offerings. In addition, the report
stated that many vendors were vocal in their concerns regarding the cost caused by
GSA overlaps. Furthermore, the report disclosed an opportunity to increase efficiency
by eliminating overlaps and redundancies and improving coordination and concluded
overlap might cause a customer to not receive the best solution for their requirements.

Subsequent to the Accenture report 9 , GSA created the FAS organization to better
support customer requirements by combining the operations of the Federal Technology
Service (FTS) and the Federal Supply Service (FSS). In addition, FAS commissioned
the rationalization study discussed above. Accordingly, we make no recommendations
regarding the Accenture study.

SiloSmashers Study - SiloSmashers, a management and IT consulting firm, conducted
a study of methods to improve the MAS program in 2005. We determined that FAS
took appropriate actions to address SiloSmashers’ recommendations related to
duplication. Accordingly, we made no recommendations related to the study.
                                                            
8
 The Accenture report was titled, “GSA Delivery of Best Value Information Technology Services to
Federal Agencies.”  
9
  FAS was officially launched on May 1, 2007, following:       GSA Order ADM 5440.591 dated
September 9, 2005, Public Law Number 109-313, dated October 6, 2006.
 
                                                               8

                                                                
The purpose of the SiloSmashers project was to assist FAS in their investigation of
innovative strategies for improving the MAS program. The SiloSmasher’s report 10 ,
which was issued on September 30, 2005, determined, in part that overlap and
competition in the MAS program had led to a proliferation of Schedules in the
acquisition centers, as well as non-standardized policies and procedures. The report
indicated that this made it difficult for customers and vendors to work with the program.
Further, it noted that customers no longer knew which Schedule to use, or how to find,
compare, and select the products and services they needed. As a result, the report
concluded that FAS should reduce the number of Schedules, enhance IT systems, and
clean up and rationalize SINs and clauses to a logical and more manageable number.

FAS has taken several actions in accordance with the SiloSmashers recommendations,
including the following:

•      FAS reduced the number of GSS Schedules from 37 at the time of the SiloSmashers
       report to 32, and is evaluating these additional changes:

              o Consolidating the five furniture Schedules (Schedule 71’s) to one,
              o Consolidating the two furnishing Schedules (72 I A and 72 II) to one, and
              o Eliminating the Schedule for photographic equipment (Schedule 67).

•      FAS has implemented several system enhancements and initiated a five-year $59.8
       million systems modernization effort.

•      FAS has nearly completed standardizing contract clauses for the services
       Schedules, and plans to standardize clauses for the products Schedules next.

•      FAS works continually to revise SINs through its 1649 process, which was discussed
       above and will be discussed in greater detail later in the report.

Since FAS has taken action in line with the recommendations of the SiloSmashers’
study, we make no recommendations in this report related to the study.

Overall Conclusion on Studies - FAS has taken action following the recommendations
of the studies. For example, FAS is standardizing contract clauses in accordance with
the recommendations of the SiloSmashers study, and the rationalization study we
discuss above was undertaken in line with recommendations of the Accenture study.
However, we noted recommendations, as presented above, related to BAH’s study of
the 1649 process and BAH’s rationalization study to further assist FAS in addressing
unnecessary duplication.

                                                            
10
  SiloSmashers report was titled, “Final report: Multiple Award Schedule (MAS) Program Research &
Analysis.”
 
                                                               9

                                                                
Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

1. Create an accurate and complete inventory of GSS MAS duplication, while taking in
   to account the deficiencies of the BAH rationalization study.

2. Develop and implement a plan to determine whether recommendations in BAH’s
   September 2008 report regarding the 1649 process should be acted upon.

Management Comments

The Commissioner concurred with our recommendations.

FAS Initiatives to Reduce Unnecessary Duplication in MAS

FAS initiatives to address unnecessary duplication within MAS include establishment of
the CS, the GSA Form 1649 process, and COI. Two of the initiatives (CS and the 1649
process) have been in existence for several years, but FAS has not optimized them to
alleviate unnecessary duplication within the Schedules program. COI was developed in
2009, in accordance with the rationalization study discussed in this report.

Consolidated Schedule - The CS has not reduced duplication to the maximum extent
possible due to numerous operational issues and insufficient educational efforts related
to the Schedule. If FAS resolves these issues and is successful in increasing usage of
the CS through improved vendor awareness, FAS could eliminate a maximum of 1,670
duplicative MAS contracts.

The CS, which is a voluntary GSA program available to vendors, is controlled by the
Management Services Center in Auburn, Washington. This program is designed to
enable vendors to conduct business with only one Schedule contract, even if they offer
very disparate products and services that normally would be contracted for under
different FAS Schedules. Although the CS might not be a viable option for all vendors,
it has the potential to assist many vendors and thereby reduce duplication for vendors
and GSS.

The March 2000 Acquisition Plan for the CS included the following description of the
Schedule’s benefits to customers and vendors:

      “This…offers both small and large businesses the opportunity to provide
      their entire business lines – no more hunting for the right schedule fit –
      eliminating redundancy in preparing bids, publishing price lists and
      reporting sales, thus reducing costs to do business. Offers may be
      submitted in a consolidated fashion saving time and money. From a
      customer perspective, corporate contracting will provide a single entryway

                                          10

                                            
              to the commercial marketplace – no more searching through various
              schedules to find needed items – and will reduce administrative work.”

Operational issues that are reducing the effectiveness of the CS include: Schedule
participation, revenue allocation, timeliness of updates, system accuracy, and
educational resources.

Schedule Participation and Revenue Allocation - A factor that has reduced the
effectiveness of the CS is incomplete Schedule participation. In addition, some within
FAS believe revenue allocations may play a part in the level of support given by the
acquisition centers to the CS.

As of August 2009, the following 20 GSS Schedules did not participate in the CS:

             Table II – GSS Schedules That Do Not Participate in the CS 11
      Schedule                               Schedule
  No. Number Schedule Description No. Number Schedule Description
   1    51 V       Hardware Superstore 11 71 III E        Miscellaneous Furniture
   2      56         Building Materials  12    72 II            Furnishings
   3     58 I           Audio/Visual     13   72 I A          Floor Coverings
   4      66       Scientific Equipment  14     73             Food Service
                                                         Temporary Administrative
   5      67            Photography      15    736       and Professional Staffing
                   Office Furniture and
                                                              Office Products
   6     71 I             Services       16     75
   7    71 II      Household Furniture   17     78           Sports and Signs
   8   71 II H      Packaged Furniture   18   81 I B              Shipping
   9   71 II K    Furniture Management 19       84                Security
  10    71 III     Special use Furniture 20 00JWOD               AbilityOne

Some Schedules were formerly included in the CS, but were removed by their
respective acquisition center management. For example, the acquisition centers
deleted product Schedules circa 2003. FAS officials stated that this was due to a lack
of contractor participation; however, a significant CS improvement had just been made.
Other Schedules, such as 736, have never participated at the discretion of acquisition
center management. In order to ensure maximum effectiveness for the CS, we believe
decisions regarding Schedule inclusion should be made at higher management level,
and the issue should be revisited.

In addition, the Management Services Center receives all the revenue related to the CS
contracts they manage 12 , even when they solicit the expertise of contracting personnel

                                                            
11
 Schedule 70 participates in the CS, but the Office of Integrated Technology Services is responsible for
Schedule 70. 
                                                               11

                                                                
in other acquisition centers. The Management Services Center is the lead for the
majority of the CS contracts and therefore receives the most revenue, as shown in
Table III:


                  Table III – CS Revenue Allocations to Acquisition Centers
                     Acquisition Center                     FY 2008         FY 2009
     Integrated Workplace                                     $390,054         $74,788
     Greater Southwest                                               $0           $109
     Center for IT Schedule Programs                        $1,972,570      $2,158,472
     Management Services Center                             $3,162,052      $3,577,050
     Office Supplies and Administrative Services                $16,545         $3,828
     Total                                                  $5,541,221      $5,814,247

Untimely Updates – The Management Services Center did not update the CS in a timely
manner to reflect changes to clauses and SINs of participating Schedules. As a result,
CS vendors operate under different clauses and SINs than those vendors without CS
contracts and CS vendors lose sales opportunities.

The Management Services Center advised us that they have not updated the CS since
July 2007. As a result, many changes that have been made to underlying Schedules
since July 2007 have not been made to the CS, as noted below:

       •      Clauses that were standardized in 11 participating Schedules in May 2008 have
              not been standardized in the CS.

       •      In February 2008, the MOBIS Schedule added two SINs: 874-7 (program and
              project management) and 874-8 (workforce training).

       •      In April 2008, SIN 541-1000 was added to the Advertising and Integrated
              Marketing Schedule (Schedule 541) for other direct costs.

       •      In July 2008, 03FAC revised SINs to add energy management.

       •      In February 2008, the Facilities Maintenance and Management Schedule (03FAC)
              added SIN 003-97 (ancillary repair and alteration).

       •      In April 2008, the Financial and Business Solutions Schedule (Schedule 520)
              added SINs for protection services.


                                                                                                                                                                                                
12
  For example, the IT Acquisition Center is the lead center for a few CS contracts (38 as of May 2009),
since IT is the predominant service or commodity covered by these contracts. The IT Center receives the
revenue for these contracts.  
                                                                                            12

                                                                                                
   •   In February 2008, the Professional Engineering Schedule (Schedule 871) added
       SIN 871-7 (construction management).

This places CS vendors at a distinct disadvantage over vendors without a CS, because
they cannot capture sales of products and services if the items covered by a certain SIN
are not included in their CS contract.

The Management Services Center advised that a refresh of clauses and SINs in the CS
was planned for August 2009. In addition, they hope to load the CS to FAS’ automated
Solicitation Writing System to permit easier and timelier updates to the CS.

To ensure CS vendors operate under the same terms and conditions as vendors
without CS contracts and prevent CS vendors from losing business opportunities, the
Management Services Center should synchronize updates to the CS and participating
Schedules.

Systems Issue – FAS ordering systems (such as eLibrary and eBuy) did not always
accurately reflect the scope of work that could be performed under vendors’ CS
contracts. Consequently, CS vendors and customers could not use resources as
efficiently as possible.

Starting in late 2002, FAS “cross-walked”, or linked, the SINs in the CS to the SINs in
corresponding schedules on FAS ordering systems. For example, SIN C-R703 on the
CS correlates to SINs 520-11 and 520-12 on Schedule 520 (financial and business
solutions). These particular SINs allow customers to purchase accounting and
budgeting services.

We noted cross-walk inaccuracies, however. For instance, the CS has only one SIN
that encompasses aspects of the Professional Engineering Services (PES) Schedule
(SIN “C R452”), whereas the PES Schedule has multiple SINs. A CS vendor may not
be approved to provide some of the PES SINs, but this distinction is not reflected in
FAS systems for the CS. Vendors stated that incorrect information in FAS systems
causes confusion and wastes time and effort for customers and vendors alike. The
Management Services Center is aware of the issue and its impact.

We believe FAS should ensure the vendor’s CS offerings are accurately depicted in
FAS systems. This will help to improve the efficiency and effectiveness of the CS.

Vendor Training – Vendors in our sample were unaware of the existence of the CS
and/or improvements that had been made to the Schedule since its introduction.
Because FAS had not directed sufficient educational resources to the CS in several
years, vendors and customers underutilize the CS and unnecessary duplication is
exacerbated.



                                          13

                                             
According to the FAS personnel, insufficient resources have not been allocated to CS
vendor training for several years due to other priorities for limited resources. Even
without adequate resources, CS revenues have remained relatively stable, as shown in
Chart I.


               Chart I -- Total CS Sales for FY 2004 - FY 2008 ($ in Millions)

         1,001



           501
                                                                                            CS Sales


               1
                     FY04      FY05          FY06              FY07          FY08




However, the number of CS contracts has declined slightly, as shown in Chart II.


           Chart II -- Total Number of CS Contracts for FY 2004 - FY 2008

         300
         250
         200
         150
                                                                                    Total CS Contracts
         100
          50
           0
                   FY04     FY05      FY06              FY07          FY08




The CS has considerable potential for growth, since 1,214 additional vendors are
eligible for CS participation. If each of these vendors replaced their eligible contracts
with a CS contract, 1,670 duplicate contracts could be eliminated. Should this occur,
GSS will need to consider the adequacy of staffing for the CS.

Award and administration of the CS is currently carried out with staffing of one
unwarranted Contract Specialist, three warranted Contracting Officers, and a manager.
Their duties include migrating vendors from the various Schedules to the CS, refreshing
clauses, and processing contract modifications to change such things as prices and
vendor contact information.

To increase awareness of the CS, GSS needs to improve training efforts related to the
Schedule. If this increases the number of CS contracts, as we expect, GSS will need to
consider reallocating staffing resources.


                                                14

                                                     
Overall Conclusion for the CS -- If FAS makes operational improvements to the CS
discussed in this section of the report and enhances CS vendor education, duplication
within the MAS program could be reduced.

Currently, 1,214 GSS vendors who are eligible to participate in the CS do not have a CS
contract. These vendors have a total of 2,884 Schedule contracts. We recognize that
the CS may not be appropriate for all eligible vendors. However, if all 1,214 eligible
vendors migrated to a CS contract, 1,670 Schedule contracts could be eliminated.

1649 Process – No updated official written policies or procedures exist for the 1649
process. As a result, this method of controlling unnecessary duplication within GSS is
less efficient and effective than it could be.

The 1649 process is an important control within FAS to reduce duplication identified by
OMB in their 2007 PART analysis of GSS. OMB reported that regional management of
FAS acquisition centers had led to Schedule contracts for the same or similar products
and services and competition between the centers for customers.

Form 1649 is used to add, delete, or clarify SINs; determine whether Schedules should
be reallocated between the acquisition centers; and add or delete Schedules. The
purpose of the form is to obtain concurrence from all of the acquisition centers and
minimize overlap of services and products on Schedules.

The following guidance for the 1649 process has not been updated since before the
creation of FAS: (1) FSS Acquisition Letter FC-00-1, (2) FSS Acquisition Letter FC-98-4,
and (3) Procurement Information Bulletin 98-7. Additionally, GSA Order 2901.2A FSS
P, Supply Operations, expired November 15, 2004. FAS specifically advised that GSA
Acquisition Letter V-06-07, Supplement Number 2, extended (but did not update) FSS
Acquisition Letter FC-00-1.

We determined that the 1649 process varied among the regions, and there was
widespread uncertainty about the precise process and when it should be used. For
example, some regions centrally control processing and review of Form 1649s, whereas
other regions obtain more widespread input from their personnel. In addition, some
FAS personnel were uncertain when a Business Case was required. FAS officials
advised that this uncertainty is partly due to the combination of FTS and FSS to create
FAS, since FTS did not use Form 1649, and that it was not formerly required for all FAS
Schedules. The other major issue causing uncertainty about the 1649 process is the
lack of current written policy.

Due to the importance of the 1649 process in minimizing duplication within the
Schedules program, we believe FAS should issue policies and procedures regarding
the form.



                                          15

                                            
Communities of Interest (COI) – COI, a web-based FAS initiative, does not reduce
any unnecessary duplication. Rather, it reduces confusion for customers caused by the
duplication. Because this initiative is still under development and does not yet
encompass all GSS services and products, we make no recommendations related to
this initiative.

COI was initiated following a recommendation of BAH’s rationalization study. With COI,
FAS has identified related Schedules and SINs for three functional areas (security,
financial services, and facilities management), and is now doing so for human
resources.

For each of these areas, FAS has created web pages that identify the Schedules and
SINs customers can use to procure the items. For example, the web page FAS created
for security shows that MAS offers products and/or services related to identity
management, safeguarding information, compliance support, physical security, security
systems, and information technology services and security for legacy integration. When
a customer or vendor clicks any of these headings, they are directed to a webpage that
displays all of the related Schedules and SINs. The customer can follow the SIN or
Schedule link they are interested in to identify the vendors that can provide the items.

COI does not reduce FAS costs, as it eliminates no Schedules, SINs, or contracts.
Rather, it increases FAS costs slightly to keep web pages current, accurate, and
complete. FAS believes COI will generate revenue above its cost by drawing more
customers to the MAS program. COI’s primary benefit is to make the ordering process
easier, by helping customers to locate the items they need. It can also help vendors
identify the appropriate Schedules and SINs for their products and services.

On June 5, 2009, FAS requested a deviation to Federal Acquisition Regulation (FAR)
Part 51. On June 16, 2009, the Senior Procurement Executive in GSA’s Office of the
Chief Acquisition Officer approved the deviation. FAR Part 51 provides limited
circumstances when a MAS vendor may purchase items from Government supply
sources, like GSA. The deviation gives GSA contractors greater latitude to purchase
items from other Schedule vendors and GSA Global Supply. FAS is hopeful that when
this deviation is fully implemented, it will simplify the acquisition process by allowing
customers to contract with one vendor within a COI and obtain a solution including
items from multiple vendors and Schedules. The Commissioner provided a copy of the
September 16, 2009 memorandum that granted FAS a 5-year class deviation to FAR
Part 51. (See page A-4.)

Overall Conclusion Regarding FAS Initiatives – FAS has undertaken several
significant initiatives to reduce unnecessary duplication within the MAS program,
including the CS, the 1649 process, and COI. As discussed in recommendations
above, we believe several enhancements can be made to the CS and the 1649 process
to improve their effectiveness in reducing unnecessary duplication in the MAS program.


                                           16

                                             
Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

3. Implement the following operational and educational improvements to the CS:

   a) Centrally determine which Schedules should participate in the CS, when they may
      be allowed to cease participation, and what documentation, review, and approval
      are required for such a change.

   b) Determine whether acquisition centers that assist with CS contracts should be
      allocated a portion of CS revenue.

   c) Synchronize updates of the CS and their participating Schedules.

   d) Determine the feasibility of improving the accuracy of CS vendor offerings
      displayed in FAS systems.

   e) Increase vendor awareness of the CS.

4. Issue updated guidance on the 1649 process, after determining the most suitable
   procedures.

Management Comments

The Commissioner concurred with our recommendations.

System Issues Related to Small Business Set-Asides

Due to FAS system limitations involving small business SINs, unnecessary duplication
exists. If the system issues can be resolved, FAS could eliminate 270 contracts.

Small business set-aside SINs exist because of FAR provisions. FAR 19.502-2
generally provides that acquisitions with an anticipated dollar value between $3,000 and
$100,000 are automatically reserved exclusively for small businesses, and FAR 19.503
allows an entire class of items to be set aside for small businesses. FAS has followed
the intent of FAR 19.503 and established 66 SINs on 14 Schedules to account for items
that are reserved for small businesses.

The system we discuss in this section is GSA’s Federal Procurement Data System
(FPDS). FPDS stores information on $250 billion worth of Federal contracts awarded
each year. FAS awards separate Schedule contracts for these small business set-aside
SINs because FPDS cannot track sales at the SIN level. As a result, the small
businesses must have two contracts for the same Schedule.


                                          17

                                            
This problem has resulted in 270 duplicative Schedule contracts. For example, a
Schedule 56 vendor has two Schedule 56 contracts. One of the contracts has six SINs
and the other contract has only one SIN (a set-aside SIN). If FAS could eliminate these
270 duplicative Schedule contracts by correcting the system issue, FAS and vendor
cost could be reduced.

Recommendation

We recommend that the Commissioner of the Federal Acquisition Service:

5. Submit a formal FPDS change request to GSA’s Office of the Chief Acquisition
   Officer to resolve the issue that requires GSS to award separate MAS contracts for
   small business set-asides.

Management Comments

The Commissioner concurred with our recommendation.

FINDING 2 – NO UNNECESSARY DUPLICATION OF PRODUCTS AND SYSTEMS
BETWEEN MAS AND GSA GLOBAL SUPPLY

Based on the scope of our review, we determined that products and ordering systems
for MAS and GSA Global Supply were duplicated. However, we concluded that the
duplication was appropriate because each program serves different customer needs.

Appropriate Duplication of Products

Although GSA Global Supply and the MAS program offer some of the same products,
we determined that this form of duplication was proper, because each program serves
different customer needs.

Based on their unique business models, GSA Global Supply and MAS provide
customers with different levels of service. As shown in Table IV GSA Global Supply
performs functions on behalf of the customer, whereas MAS customers deal directly
with the vendors:

      Table IV – Customer Relationships for GSA Global Supply and MAS
                              Customer
  Supply       Customer       Receives      Customer    Customer Resolves
 Program    Orders From? Items From?         Pays?        Disputes With?
   GSA
  Global                    FAS Depot or
  Supply          FAS        FAS Vendor       FAS               FAS
   MAS          Vendor          Vendor       Vendor            Vendor


                                          18

                                            
In exchange for this increased level of service, GSA Global Supply imposes a program
service fee, known as a mark-up, to its customers. As shown in the following Chart,
markups for GSA Global Supply’s Stock, Stock Direct Delivery (Stock DD) 13 , EDD, and
Special Order Program (SOP) 14 range from an average of 10 to 44 percent 15 . The MAS
program operates on a 0.75 percent program fee, which is remitted quarterly to FAS by
MAS vendors.


                         Chart III - Price Markups For GSA Global Supply and MAS FY
                                                      2009

                  60%                                                                          Stock
                                                                                               Stock DD
                  40%
                                                                                               SOP
                  20%                           44%                                   0.75%    EDD
                                                               32%
                                                                     13%        10%            MAS
                    0%



We feel that both programs offer value to the customer, as evidenced by the significant
sales recognized by both programs. FY 2008 sales for GSA Global Supply were $1.2
billion, and GSS’ MAS program had sales of $268 million.

Duplicate Ordering Systems

We determined that GSA Global Supply and the MAS program have duplicate order
entry systems. However, this does not represent unnecessary duplication, because it is
meeting customer needs.

In their 2007 PART review of GSS, OMB reported that customer agencies could order
similar items from GSA Global Supply and MAS through multiple websites that did not
allow them to compare items or prices. This situation still exists, since FAS still has
multiple ordering systems, and GSA Global Supply’s website only shows GSA Global
Supply Items, not MAS items.

While duplicate systems inflate FAS costs, the systems generate revenue above their
expenses and are providing value to the customer, as evidenced by their heavy sales
volume. For example, GSA Global Supply’s website had FY 2008 sales of $43.8
million, and GSA Advantage had sales of $299.6 million.
                                                            
13
  The Stock DD markup is applied to sales of Stock items that are delivered directly from the vendor to
the customer due to large order size. 
14
     GSA Global Supply items that are not stocked in the depots.  
15
 Generally, the more direct involvement GSA has with an item the greater the markup is for that item;
GSA has more direct involvement with Stock items compared to EDD items.
                                                                           19

                                                                            
FINDING 3 – NO UNNECESSARY DUPLICATION OF PRODUCTS WITHIN GSA
GLOBAL SUPPLY

Unnecessary duplication of products did not exist within GSA Global Supply based on
our review of program processes and controls. We determined that GSA Global Supply
had controls to ensure that the Stock, SOP and EDD programs did not offer the same
items.

GSA Global Supply assigns each item to Stock, SOP, or EDD. Stock items are
generally stored in GSA warehouses. SOP items are purchased as needed by
customers and shipped directly from vendors. EDD items are direct delivered from
vendors with GSA packaging and marking, and do not have NSNs.

Because FAS assigns each NSN to either Stock or SOP, there is little opportunity for
duplication. To evaluate controls to ensure NSN items were available only under one
program, we obtained automated listings of the NSNs assigned to both programs and
identified no unexplained duplication.

We initially identified 241 instances where NSNs appeared to be duplicative. After
further investigation, we determined that none of the NSNs were unnecessarily
duplicated. In 194 cases, an NSN appeared twice on the listings because it was
officially assigned to Stock, but sometimes large orders were filled via another method.
The remaining 47 NSNs appeared in both Stock and SOP listings, because they were in
transition from one program to the other. To ensure uninterrupted delivery for these 47
items, the NSN was active in SOP before all of the items in Stock were depleted.

Regarding EDD items, GSS has written procedures to ensure the items are not
provided by any other EDD vendor or any other GS program. We verified their
processes and found them to be adequate. The process is not currently automated, but
FAS has solicited a contract to automate the process.

OVERALL REPORT CONCLUSION

Unnecessary duplication within MAS has caused confusion and increased operating
costs for GSS, vendors, and customers, alike. Opportunities exist for GSS to reduce
unnecessary duplication by applying recommendations noted in FAS’ commissioned
studies and optimizing GSS initiatives.

MANAGEMENT CONTROLS

The examination of management controls was limited to those necessary to accomplish
the specific objectives and scope of the audit. Based on our limited review, we
identified no significant management control issues other than those discussed in the
body of this report. 


                                          20

                                            
MANAGEMENT COMMENTS

The Commissioner concurred with our recommendations. However, he requested two
minor wording changes in the body of the report, which we incorporated. His comments
are included in their entirety as pages A-1 and A-2. Attachment A of his comments,
which involved 1649 criteria, is summarized on page A-3. Attachment B of his
comments, which showed that the FAR Part 51 deviation was finalized, is included as
page A-4.




                                        21

                                          
APPENDICES




      

      
DETERMINATION OF UNNECESSARY DUPLICATION WITHIN
  THE OFFICE OF GENERAL SUPPLIES AND SERVICES
          FEDERAL ACQUISITION SERVICE
        REPORT NUMBER A080226/Q/A/P09006

       Management Response to the Draft Report




                        A-1

                           
Management Response to the Draft Report (Continued)




                       A-2

                          
               Management Response to the Draft Report (Continued)


Management’s attachment “A” has been excluded from the report, due to length.
Attachment A included the following documents:

   1. General Services Administration Acquisition (GSA) Letter V-06-07, effective as of
      November 22, 2006.
   2. GSA Acquisition Letter V-06-07 Supplement Number 1, effective as of
      November 21, 2007.
   3. GSA Acquisition Letter V-06-07 Supplement Number 2, effective as of
      November 22, 2008.
   4. Federal Supply Service (FSS) Acquisition Letter FC-00-1 Supplement Number 3,
      dated September 5, 2001.
   5. FSS Acquisition Letter FC-00-1 Supplement Number 2 Correction, dated
      September 29, 2000.
   6. FSS Acquisition Letter FC-00-1 Supplement 2, dated August 25, 2000.
   7. FSS Acquisition Letter FC-00-1 Supplement 1, dated July 17, 2000.
   8. FSS Acquisition Letter FC-00-1, dated March 14, 2000.

Management’s attachment “A” is available upon request. Please contact Perla Corpus,
or John Pollock. They may be reached by phone or email: Perla Corpus,
perla.corpus@gsa.gov, (415)522-2733; John Pollock, john.pollock@gsa.gov, (816)926-
8616.




                                         A-3

                                            
Management Response to the Draft Report




                 A-4

                    
           DETERMINATION OF UNNECESSARY DUPLICATION WITHIN
             THE OFFICE OF GENERAL SUPPLIES AND SERVICES
                     FEDERAL ACQUISITION SERVICE
                   REPORT NUMBER A080226/Q/A/P09006

                                  REPORT DISTRIBUTION


                                                                       Copies

Commissioner, Federal Acquisition Service (Q)                             3

Assistant Commissioner, Office of General Supplies and Services (QS)      1

Assistant Commissioner, Office of Acquisition Management (QV)             1

Director, Office of Supply Operations (QSD)                               1

Director, Office of Acquisition Operations (QSA)                          1

Director, MAS Program Division (QV0D)                                     1

Director, Internal Control and Audit Division (BEI)                       1

Office of Inspector General (J)                                           4

Assistant Inspector General for Auditing (JA)                             2

Director, Audit Planning, Policy, and Operations Staff (JAO)              1

Assistant Inspector General for Investigations (JI)                       1

 




                                           B-1
